No.

In the

Supreme Court of the United States
MICHAEL J. DEMARTINI, ET AL.,

v.

Petitioners,

TIMOTHY P. DEMARTINI, ET AL.,

Respondents.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the Petition for a
Writ of Certiorari in the above-referenced case contains 8992 words, excluding the
parts of the petition exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on May 24, 2021.
By:
Kathryn M. Davis
LAW OFFICE OF KATHRYN M. DAVIS
530 South Lake Ave.,
No. 425
Pasadena, CA 91101
(626) 356-8059
kathryn.davis@kmdavislaw.com

